          HEARING BEFORE THE
    COMMITTEE ON APPROPRIATIONS
SUBCOMMITTEE ON FINANCIAL SERVICES AND
         GENERAL GOVERNMENT
    U.S. HOUSE OF REPRESENTATIVES

 “Oversight Hearing - Department of Treasury”




                  Testimony of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration

                 March 5, 2013

                Washington, D.C.
                                    TESTIMONY OF
                         THE HONORABLE J. RUSSELL GEORGE
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                      before the
                            COMMITTEE ON APPROPRIATIONS
                      SUBCOMMITTEE ON FINANCIAL SERVICES AND
                                GENERAL GOVERNMENT
                           U.S. HOUSE OF REPRESENTATIVES

                                     “Oversight Hearing - Department of Treasury”

                                                    March 5, 2013

       Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, I thank you for the opportunity to testify on our recent work related to the
most significant challenges currently facing the Internal Revenue Service (IRS), as well
as on the Treasury Inspector General for Tax Administration’s (TIGTA) Fiscal Year
(FY)1 2013 budget request.

        TIGTA is a nationwide organization located in 68 offices throughout the United
States and Puerto Rico. We are statutorily mandated to provide independent audit,
investigative, and inspection and evaluation services necessary to improve the quality
and credibility of IRS operations, including the oversight of the IRS Chief Counsel and
the IRS Oversight Board. TIGTA’s oversight activities are explicitly designed to identify
high-risk systemic inefficiencies in IRS operations and to investigate exploited
weaknesses in tax administration. TIGTA’s role is critical to providing the American
taxpayer with assurance that the approximately 92,500 IRS employees who collect over
$2.1 trillion in tax revenue each year, process over 147 million individual tax returns,
and issue $333 billion in tax refunds, do so in an effective and efficient manner while
minimizing the risks of waste, fraud, or abuse.

      TIGTA’s Office of Audit (OA) reviews all aspects of the IRS tax administration
system and provides recommendations to: improve IRS systems and operations,
ensure the fair and equitable treatment of taxpayers, and prevent and detect fraud,
waste, and abuse. OA places audit emphasis on statutory coverage required by the
IRS Restructuring and Reform Act of 1998 (RRA 98),2 the American Recovery and

                                                 
 
1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
2
  Pub. L. No. 105-206, 112 Stat. 685. 1998 (codified as amended in scattered sections of 2 U.S.C.,
5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
                                                          1
 
Reinvestment Act of 2009,3 and other laws, as well as areas of concern to Congress,
the Secretary of the Treasury, the Commissioner of the IRS, and other key
stakeholders. These reviews have covered such high-risk issues as identity theft,
refund fraud, improper payments, information technology, security vulnerabilities,
complex modernized computer systems, tax collections and revenue, and waste and
abuse in IRS operations.

        TIGTA’s Office of Investigations (OI) protects the integrity of the IRS by
investigating allegations of IRS employee misconduct, external threats to employees
and facilities, and attempts to impede or otherwise interfere with the IRS’s ability to
collect taxes. Misconduct by IRS employees manifests itself in many ways, including
extortion, theft, taxpayer abuses, false statements, financial fraud, and identity theft.

        OI places the highest priority on its statutory responsibility to protect
approximately 92,500 IRS employees located in over 670 facilities nationwide. In the
last three years, threats directed at the IRS have become a larger percentage of OI’s
work. Physical violence, harassment, and intimidation of IRS employees continue to
pose significant challenges to the implementation of a fair and effective system of tax
administration. OI is committed to ensuring the safety of IRS employees and the
security of IRS facilities.

        For FY 2012, TIGTA has recovered, protected, and identified monetary benefits
totaling $22.7 billion, including cost savings, increased revenue, revenue protection, and
court-ordered settlements in criminal investigations.

OVERVIEW OF THE STATUS OF THE IRS’S FY 2013 BUDGET REQUEST

       The IRS is the largest component of the Department of the Treasury and has
primary responsibility for administering the Federal tax system. The IRS’s budget
request supports the Department of the Treasury’s goals to pursue comprehensive tax
and fiscal reform and to increase voluntary tax compliance. The IRS strives to enforce
the tax laws fairly and efficiently while balancing service and education to promote
voluntary compliance and reduce taxpayer burden. The IRS’s role is unique within the
Federal Government in that it collects the revenue that funds the Government and
administers the Nation’s tax laws. It also works to protect Federal revenue by detecting
and preventing the growing risk of fraudulent tax refunds and other improper payments.



                                                 
 
3
    Pub. L. No. 111-5, 123 Stat. 115. 2009.
                                                    2
 
TIGTA has reported on the IRS’s efforts to shift resources to work cases of high risk,
rapidly growing fraud and abuse.4

FY 2014 IRS Budget

       As of March 5, 2013, the President had not submitted the IRS’s FY 2014 budget
to Congress. In addition, the IRS does not have an approved budget for FY 2013 and is
operating under a Continuing Resolution with funding based on its FY 2012 enacted
budget.

Comparison of FY 2013 Budget to FY 2012 Budget

       For FY 2013, the IRS requested appropriated resources of $12.8 billion. The
total appropriations request is an increase of $945 million, or approximately eight
percent more than the FY 2012 enacted level of approximately $11.8 billion. The
budget request includes a net staffing increase of more than 4,500 full-time equivalents
(FTE),5 to a total of 95,257 appropriated FTEs.

       In its FY 2013 budget request, the Administration sought to increase funding over
FY 2012 enacted operating levels for three of the appropriations accounts. These
increases ranged from one (1) to 13 percent (see Figure 1).




                                                 
 
4
  TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012); and TIGTA, Ref. No. 2011-30-118, The
2009 Offshore Voluntary Disclosure Initiative Increased Taxpayer Compliance, but Some Improvements
Are Needed (Sep. 2011).
5
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year.
                                                    3
 
                                                         Figure 1

                                         IRS FY 2013 Budget Request Increase
                                             Over FY 2012 Enacted Budget
                                                    (in Thousands)

                                                     FY 2012        FY 2013        $         %
    Appropriations Account                           Enacted        Request      Change    Change
    Taxpayer Services6                               $2,239,703     $2,253,133   $13,430    0.60%
    Enforcement                                      $5,299,367     $5,701,670 $402,303     7.59%
    Operations Support                               $3,947,416     $4,476,200 $528,784    13.40%
    Business Systems
    Modernization                                     $330,210       $330,210        $0       0%
    Total Appropriated
    Resources                                       $11,816,696 $12,761,213 $944,517        7.99%
Source: TIGTA analysis of IRS’s FY 2013 Budget Request, Operating Level Tables.

       The three largest appropriations accounts are Taxpayer Services, Enforcement,
and Operations Support. The Taxpayer Services account provides funding for
programs that focus on helping taxpayers understand and meet their tax obligations,
while the Enforcement account supports the IRS’s examination and collection efforts.
The Operations Support account provides funding for functions that are essential to the
overall operation of the IRS, such as infrastructure and information services. Finally,
the Business Systems Modernization account provides funding for the development of
new tax administration systems and investments in electronic filing.

        The Patient Protection and Affordable Care Act of 20107 and the Health Care
and Education Reconciliation Act of 20108 that made amendments to it (hereinafter
collectively referred to as the ACA) contains an extensive array of tax law changes that
will present many challenges for the IRS in the coming years. While the Department of
Health and Human Services will take the lead in developing the policy provisions of the
Act, the IRS will administer the law’s numerous tax provisions. The IRS estimates that
the ACA includes approximately 50 tax provisions and at least eight will require the IRS
                                                 
 
6
  In FY 2012, administrative resources for the Health Coverage Tax Credit were moved to the Taxpayer
Services appropriation under the Consolidated Appropriations Act of 2012 (Public Law 112-74) and are
no longer funded as a separate appropriation.
7
  Pub. L. No. 111-148, 124 Stat. 119. 2010 (codified as amended in scattered sections of the U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
8
  Pub. L. No. 111-152, 124 Stat. 1029. 2010.
                                                             4
 
to build new computer applications and business processes that do not exist within the
current tax administration system.

       In FY 2012, the IRS received $299 million from the Health Insurance Reform
Implementation Fund (HIRIF) to fund an additional 667 FTEs. The HIRIF is
administered by the Department of Health and Human Services as provided for in the
Health Care and Education Reconciliation Act of 2010 to carry out the ACA. This
funding was in addition to the funding received by the IRS based on its enacted budget.
The IRS’s FY 2013 budget request includes no FTEs directly funded by the Department
of Health and Human Services. The IRS informed TIGTA that it does not expect any
additional funding from the HIRIF.

ACHIEVING PROGRAM EFFICIENCIES AND COST SAVINGS

       The IRS FY 2013 budget request also assumes that efficiency savings will result
in a net reduction of $71 million and an associated reduction of 614 FTEs for FY 2013.
The three largest areas of cost savings include almost $60 million in program reductions
(a 437 FTE decrease), approximately $3 million in a reduction of non-technical travel
and non-case related travel, and approximately $9 million in savings from increased
electronic filings (a 177 FTE decrease).

         As stated earlier, the IRS’s FY 2013 Continuing Resolution is based on its FY
2012 enacted budget. However, the FY 2012 budget was reduced over $300 million
from FY 2011. To meet the lower budget in FY 2012, the IRS reduced its administrative
costs, accepted early outs and buy outs for more than 1,600 employees, and made
difficult decisions in taxpayer service and enforcement operations.

       Given the current economic environment and the increased focus by the
Administration, Congress, and the American people on Federal Government
accountability and efficient use of resources, the American people must be able to trust
that their Government is taking action to stop wasteful practices and ensure that every
tax dollar is spent wisely.

       While the IRS has made progress to improve program effectiveness and reduce
costs, TIGTA identified other opportunities for efficiencies and cost savings:




                                            5
 
          The IRS can reduce its office space needs by almost 1 million square feet,
           resulting in potential rental savings of over $100 million over five years, by
           establishing a policy requiring employees who telework to share workstations.9

          The IRS can improve the efficiency of its servers. Specifically, approximately
           650 IRS servers could be candidates for replacement with virtual servers. If the
           servers are added to the virtual environment and not replaced with new physical
           servers, the IRS could save approximately $7.26 million in equipment costs and
           approximately $470,000 over five years in electrical cost.10

          The IRS paid over $1 million during FY 2011 for 13,878 aircards and
           754 BlackBerrys that were not used for periods of three months to one year.
           Overall, process improvements could result in cost savings totaling
           approximately $5.9 million over five years.11

          The IRS was not always fully reimbursed for services it provides to other Federal
           Government agencies. Specifically, we identified more than $28 million in costs
           incurred by the IRS in FY 2011 that were not reimbursed. As a result, the IRS
           funded this work using its own operating budget, thereby reducing funds
           available for tax administration.12

           The IRS’s cybersecurity and privacy governance board did not take actions to
            manage delays on its workstation security monitoring project. This project was
            originally supposed to be deployed in December 2010. However, the project
            experienced delays and the board allowed contractor support services of over
            $1 million to be incurred from December 2010 to April 2012. The new
            deployment date is scheduled for May 2013. The board knew of these delays,
            but did not postpone the project’s activities and use its resources more
            efficiently.13


                                                 
 
9
  TIGTA, Ref. No. 2012-10-100, Significant Additional Real Estate Cost Savings Can be Achieved by
Implementing a Telework Workstation Sharing Strategy (Aug. 2012).
10
   TIGTA, Ref. No. 2012-20-029, Virtual Server Technology Has Been Successfully Implemented, but
Additional Actions Are Needed to Further Reduce the Number of Servers and Increase Savings (Mar.
2012).
11
   TIGTA, Ref. No. 2013-10-010, Inadequate Aircard and Blackberry Assignment and Monitoring
Processes Result in Millions of Dollars in Unnecessary Access Fees (Jan. 2013).
12
   TIGTA, Ref. No. 2012-10-076, The Full Costs of Work Performed on Reimbursable Agreements Are
Not Always Charged, Resulting in Reduced Funds Available for Tax Administration (July 2012).
13
   TIGTA, Ref. No. 2013-20-016, Significant Delays Hindered Efforts to Provide Continuous Monitoring of
Security Settings on Computer Workstations (Jan. 2013).
                                                    6
 
           The IRS may have erroneously paid almost $1 million in Recovery Act funding for
            labor charges to contractors in Calendar Year 2011 without examining supporting
            documentation.14

           The IRS inefficiently spent $1.2 million on a contract to conduct physical security
            vulnerability assessments at 669 IRS facilities nationwide. IRS management
            instructed the contractor to perform services that were lesser in scope than
            required by the original contract and did not provide the contractor access to all
            of the facilities or information necessary to complete a report outlining the IRS’s
            overall security posture. As a result, an independent risk assessment of facility
            physical security was not performed in compliance with contract requirements. In
            fact, the contractor declined to provide a validation of the acceptability of the
            IRS’s security posture at these facilities.15

SELECTED SIGNIFICANT ISSUES FACING THE IRS

       In this section of my testimony, I will examine several of the most significant
challenges now facing the IRS as it administers the Nation’s tax laws, as the
Subcommittee has requested.

IRS TAX GAP

        A serious challenge confronting the IRS is the Tax Gap, which is defined as the
difference between the estimated amount taxpayers owe and the amount they
voluntarily and timely pay for a Tax Year (TY). The most recent gross Tax Gap
estimate developed by the IRS was $450 billion for TY 2006. In comparison, the gross
Tax Gap was estimated at $345 billion for TY 2001. The $450 billion Tax Gap estimate
for 2006 is the best approximation of noncompliance the IRS can provide. However, it
is important to note that because of the methods that are used, a significant portion of
the Tax Gap is inferred and not observed. The voluntary compliance rate decreased
slightly from 83.7 percent in 2001 to 83.1 percent in 2006. Figure 2 shows the IRS’s
latest Tax Gap Map illustrating the various components of the Tax Gap.




                                                 
 
14
   TIGTA, Ref. No. 2012-11-101, Deficiencies Continue to Exist in Verifying Contractor Labor Charges
Prior to Payment (Sep. 2012).
15
   TIGTA, Ref. No. 2012-10-075, An Independent Risk Assessment of Facility Physical Security Was Not
Performed in Compliance With Contract Requirements (July 2012).
                                                    7
 
                                       Figure 2




       Reducing the Tax Gap is an IRS priority. For example, in September 2006, the
Treasury Department’s Office of Tax Policy issued a Comprehensive Strategy for
Reducing the Tax Gap. The 2006 report provided a seven-component strategy for
reducing the Tax Gap. The components of that strategy are to:

1.   reduce opportunities for evasion;
2.   make a multi-year commitment to research;
3.   continue improvements in Information Technology;
4.   improve compliance activities;
5.   enhance taxpayer service;
6.   reform and simplify the tax law; and
7.   coordinate with partners and stakeholders.




                                           8
 
        In July 2009, the Treasury Department completed a report on the Tax Gap that
identified detailed strategic priorities, compliance program accomplishments, planned
actions and legislative proposals.16 Notwithstanding this well-laid plan, reducing the Tax
Gap and improving voluntary compliance is an ongoing challenge that requires a multi-
faceted approach.

       More recently, the Government Accountability Office issued its Tax Gap report,17
stating that because noncompliance has multiple causes and spans different types of
taxes and taxpayers, multiple approaches are needed to reduce the Tax Gap. Using
the Government Accountability Office report’s framework, the following strategies could
help address tax compliance:

          Information Reporting. Enhancing information reporting by third parties to the
           IRS could reduce tax evasion and help taxpayers comply voluntarily. However,
           identifying additional reporting opportunities can be challenging because third
           parties may not have accurate information that is readily available. Also, adding
           reporting requirements creates a burden for both third parties and the IRS.

            TIGTA agrees that access to third-party income and withholding information at
            the time tax returns are processed would encourage voluntary compliance and
            would prevent billions of dollars in fraudulent tax refunds. One opportunity to
            expand information reporting is for the IRS to obtain access to the National
            Directory of New Hires wage information for tax administration purposes.
            Currently, the IRS’s use of the National Directory of New Hires is limited by law to
            just those tax returns with the Earned Income Tax Credit. The IRS included a
            request for expanded access in each of its annual budget submissions for FYs
            2010 through 2013.

           Taxpayer Service. Ensuring high-quality services to taxpayers, such as by
            telephone and correspondence or online, can help encourage those taxpayers
            who wish to comply with tax laws but do not understand their tax obligations.
            However, tax law changes and funding priorities have recently affected the IRS’s
            ability to provide quality taxpayer services.



                                                 
 
16
   The Department of the Treasury, “Update on Reducing the Federal Tax Gap and Improving Voluntary
Compliance.” July 2009. Available at http://www.irs.gov/pub/newsroom/tax_gap_report_-
final_version.pdf.
17
   Government Accountability Office, Ref. No. GAO 12-651T, Tax Gap: Sources of Noncompliance and
Strategies to Reduce It (Apr. 2012).
                                                    9
 
            TIGTA reported that taxpayers are increasing their use of customer assistance
            tools; however, budget cuts and staffing shortages prevented the IRS from
            properly meeting its level of service goals for FY 2012. As a result, taxpayers
            waited longer on the IRS’s toll-free telephone assistance lines. In addition, tax
            return preparation was provided only on a limited number of days per week and
            only on a first-come, first-served basis at Taxpayer Assistance Centers.18

          Enforcement. Devoting additional resources to enforcement that enable the IRS
           to contact the millions of potentially noncompliant taxpayers it identifies but
           cannot contact due to resource limitations. To determine the appropriate level of
           enforcement resources, policymakers would need to consider how to balance
           taxpayer service and enforcement activities and how effectively and efficiently
           the IRS currently uses its resources.

           TIGTA’s analysis of the TY 2010 tax returns processed during the 2011 Filing
           Season identified that tax fraud by individuals filing fictitious tax returns with false
           income and withholding is significantly larger than what the IRS detects and
           prevents. Using characteristics from those tax returns the IRS identified and
           confirmed as filed by identity thieves, we identified approximately 1.5 million
           additional undetected tax returns with potentially fraudulent tax refunds totaling in
           excess of $5.2 billion. The IRS estimates that it would cost approximately
           $32 million to screen and verify these additional tax returns.19

            IRS statistics show that 50 percent of the partnership returns audited after being
            selected by the Discriminant Index Function (DIF) system,20 or related to a DIF-
            selected return, were closed as a no-change in FY 2011. The IRS has relied on
            this system to decide how to best allocate its audit resources. According to the
            IRS, a high no-change rate means the IRS is spending a significant amount of
            resources on unproductive audits and compliant taxpayers are unnecessarily
            burdened by audits. TIGTA reported that the IRS should pursue alternative audit
            selection techniques by using existing databases containing partnership data to
            help identify additional productive returns for audit.21
                                                 
 
18
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sep. 2012).
19
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
20
   The DIF-system uses computer formulas to classify tax returns for Examination potential by assigning
weights to certain basic tax return characteristics and scoring the tax return. The higher the score, the
higher the probability of significant tax change as a result of the examination.
21
   TIGTA, Ref. No. 2012-30-06, Despite Some Favorable Partnership Audit Trends, the Number of No-
Change Audits Is a Concern (June 2012).
                                                    10
 
           Compliance Checks. Expanding compliance checks before the IRS issues
            refunds would involve matching information returns to tax returns during, rather
            than after, the tax filing season. This approach would require a major reworking
            of some fundamental IRS computer systems but could help address identity
            theft-related fraud and allow the IRS to use enforcement resources on other
            compliance problems.

           TIGTA reported that the IRS took a number of additional steps for the 2012 Filing
           Season to detect identity theft tax refund fraud before it occurred.22 These efforts
           included designing new identity theft screening filters that the IRS indicates will
           improve its ability to identify false tax returns before the tax return is processed
           and before a fraudulent tax refund is issued. As of April 19, 2012, the IRS
           reported that it stopped the issuance of $1.3 billion in potentially fraudulent tax
           refunds as a result of these new filters.

           External Parties. Leveraging external resources, such as paid tax return
            preparers and whistleblowers, can help improve tax compliance because paid
            preparers’ actions have an enormous impact on the IRS’s ability to effectively
            administer tax laws, and whistleblowers provide the IRS with information on
            suspected noncompliance.

            TIGTA has reported on the IRS’s efforts to improve oversight of the return
            preparer community.23 While the IRS began implementing the new preparer
            requirements in FY 2011, TIGTA reported that it will take years for the IRS to
            implement the Return Preparer Program, including establishing all of the program
            requirements and developing the system(s) and processes necessary to
            administer and oversee the program. However, this program is on hold based on
            a recent court ruling. On January 18, 2013, the United States (U.S.) District
            Court for the District of Columbia ruled that the IRS did not have the authority to
            regulate tax preparers who had not been regulated before—namely preparers
            who were not certified public accountants, attorneys, enrolled agents, or enrolled
            actuaries.24 On January 23, 2013, the IRS filed a motion to suspend the
            injunction pending appeal. The U.S. District Court for the District of Columbia
            denied the IRS’s motion but clarified that the IRS is not required to suspend the
                                                 
 
22
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
23
   TIGTA, Ref. No. 2010-40-127, It Will Take Years to Implement the Return Preparer Program and to
Realize Its Impact (Sep. 2010).
24
   Loving v. IRS, 2013 U.S. Dist. LEXIS 7980 (D.D.C. Jan. 18, 2013).
                                                    11
 
           Preparer Tax Identification Number (PTIN) program.25 The IRS filed a notice of
           appeal to the District of Columbia Circuit Court on February 20, 2013.

            The IRS Whistleblower Program also plays an important role in reducing the Tax
            Gap and maintaining the integrity of a voluntary tax compliance system.
            However, TIGTA reported that the Program continued to have internal control
            weaknesses on the processing of whistleblower claims. For example,
            information captured from multiple systems and entered into a single inventory
            control system was potentially inaccurate, and the quality review process for the
            new inventory system was not sufficient to ensure that claims were accurately
            controlled. Additionally, TIGTA determined that timeliness standards for
            processing claims were not sufficient. Without adequate oversight of the
            Whistleblower Program, the IRS is not as effective as it could be in responding
            timely to tax noncompliance issues.26

          Modernization. Modernizing information systems could potentially allow the IRS
           to post more comprehensive tax return information to its computer systems,
           which could facilitate the examination process and expedite taxpayer contacts for
           faster resolution.

           The IRS considers the Customer Account Data Engine 2 (CADE 2) program
           critical to the IRS’s mission and it is the IRS’s most important information
           technology investment. TIGTA reported that the implementation of the CADE 2
           daily processing allowed the IRS to process tax returns for individual taxpayers
           more quickly by replacing existing weekly processing.27 The CADE 2 system
           also provides for a centralized database of individual taxpayer accounts, which
           will allow IRS employees to view tax data online and provide timely responses to
           the taxpayers. The IRS’s modernization efforts also include the development of
           computer programs to conduct predictive analytics to reduce refund fraud. The
           successful implementation of the IRS’s modernization program should
           significantly improve service to taxpayers and enhance Federal tax
           administration.




                                                 
 
25
   Loving v. IRS, 2013 U.S. Dist. LEXIS 13878 (D.D.C. Feb. 1, 2013).
26
   TIGTA, Ref. No. 2012-30-045, Improved Oversight Is Needed to Effectively Process Whistleblower
Claims (Apr. 2012).
27
   TIGTA, Ref. No. 2012-20-122, Customer Account Data Engine 2 System Requirements and Testing
Processes Need Improvements (Sep. 2012).
                                                    12
 
           Tax Simplification. Simplifying the tax code could help taxpayers understand
            and voluntarily comply with their tax obligations and limit opportunities for tax
            evasion.

        TIGTA has also identified several concerns with both estimating the Tax Gap and
efforts to reduce the Tax Gap. For example, the IRS has not developed an estimate for
the international portion28 of the Federal Tax Gap. Some estimates outside of the
Federal Government place the estimate between $40 billion and $123 billion.29 Another
concern about the IRS’s methods to estimate the size of the Tax Gap is that the sample
sizes for the employment tax study may be insufficient to determine compliance levels.30

        TIGTA has identified other areas where the IRS could improve operations to help
reduce the Tax Gap. For example, Congress provided numerous penalty provisions in
the Internal Revenue Code that the IRS can use to help remedy the noncompliance that
contributes to the Tax Gap. This can be done by imposing an economic cost on
taxpayers who choose not to voluntarily comply with our tax laws. The IRS can assess
accuracy-related penalties for negligence, substantial understatement of income tax, or
substantial valuation misstatement. The IRS estimated that the underreporting of tax
contributed $376 billion (84 percent) of the $450 billion total gross Tax Gap, including
$235 billion from individual income taxes. To deter this type of behavior, the IRS
reported that it assessed over 500,000 accuracy-related penalties, involving over
$1 billion against individuals during FY 2011.

       Penalties are an important tool because they discourage taxpayer behavior that
contributes to the Tax Gap. However, the numerous reports TIGTA has issued suggest
that the IRS could take better advantage of these tools to deter noncompliance.

       For example, TIGTA reported that additional steps must be taken to ensure that
examiners properly consider and assess accuracy-related penalties when taxpayers are
negligent or understate their tax liabilities by $5,000 or more.31 A review of 229 audits
conducted through the mail found 211 instances (92 percent) where applicable
penalties were not considered and assessed. Each of the audits resulted in the
taxpayer agreeing they owed additional taxes of at least $5,000. The $5,000 threshold
                                                 
 
28
   The international tax gap is defined as taxes owed—but not collected on time—from a U.S. person or
foreign person whose cross-border transactions are subject to U.S. taxation.
29
   TIGTA, Ref. No. 2009-IE-R001, A Combination of Legislative Actions and Increased IRS Capability and
Capacity Are Required to Reduce the Multi-Billion Dollar U.S. International Tax Gap (Jan. 2009).
30
   TIGTA, Ref. No. 2011-10-034, Limitations in the Sample Size for the Internal Revenue Service’s
Employment Tax Study may Impact Ability to Determine Compliance Levels (May 2010).
31
   TIGTA, Ref. No. 2010-30-059, Accuracy-Related Penalties Are Seldom Considered Properly During
Correspondence Audits (June 2010).
                                                    13
 
is important because examiners are required to consider assessing an accuracy-related
penalty. Since the penalties were not considered and assessed, TIGTA believes
opportunities may have been missed to promote compliance among an estimated 9,255
taxpayers over a five-year period and to enhance penalty and interest revenue by an
estimated $17.5 million.

        In another example, TIGTA made several recommendations to help ensure that
taxpayers receive fair and consistent treatment by improving how the IRS administered
a penalty under Internal Revenue Code Section 6707A.32 This penalty could be
assessed against taxpayers for failing to disclose participation in certain reportable
transactions and was enacted to detect, deter, and shut down abusive tax shelter
activity. Its importance to the IRS’s efforts in combating abusive tax shelters was
reflected in the severity of the penalty. The penalty could be as high as $100,000 for
individuals and $200,000 for businesses if they fail to disclose participation in specific
transactions that the IRS has identified and listed in publications as abusive.

       Finally, TIGTA reported that actions could be taken to reinforce the importance of
recognizing and investigating fraud indicators during field audits.33 TIGTA reviewed 116
audits of sole proprietors in which the taxpayer agreed they owed additional taxes of at
least $10,000 and found 26 audits with fraud indicators that were not recognized or
investigated. As a result, TIGTA believes sole proprietors in some 1,872 audits avoided
approximately $19.7 million ($98 million over five years) in civil fraud penalties that may
have been owed. The fact that fraud indicators were not recognized and investigated in
nearly one out of every four of these large-dollar cases is a concern because the
omitted income and overstated deductions were substantial.

AFFORDABLE CARE ACT

      The ACA provisions provide incentives and tax breaks to individuals and small
businesses to offset health care expenses. They also impose penalties, administered
through the tax code, for individuals and businesses that do not obtain health care
coverage for themselves or their employees. Revenue provisions contained in the




                                                 
 
32
   TIGTA, Ref. No. 2011-30-004, Penalty Cases for Failure to Disclose Reportable Transactions Were Not
Always Fully Developed (Dec. 2010).
33
   TIGTA, Ref. No. 2012-30-030, Actions Can Be Taken to Reinforce the Importance of Recognizing and
Investigating Fraud Indicators During Field Audits (Mar. 2012).
                                                    14
 
legislation are designed to generate $438 billion over 10 years34 to help pay for the
overall cost of health care reform. Additionally, new reporting requirements have been
established.

       In June 2012, we reported that appropriate plans had been developed to
implement tax-related provisions of the ACA using well-established methods for
implementing tax legislation.35 The IRS’s plans addressed tax forms, instructions, and
most of the affected publications, as well as employee training, outreach and guidance
to taxpayers and preparers, computer programming, and data needs.

        The health care reform becomes effective December 31, 2013. This provision is
the requirement for individuals to maintain minimum essential health care coverage or
face a continuous penalty. Starting in Calendar Year 2014, the IRS will be responsible
for implementing the premium assistance credit36 as well as implementing the penalty
on applicable individuals for each month they fail to have minimum essential coverage.
These two issues have a far-reaching impact on the IRS, and will require significant
resources, particularly customer service resources as taxpayers turn to the IRS with
questions and issues about the ACA and their tax and health insurance requirements.
Customer service has been declining in recent years, with fewer taxpayers being served
at the local offices and the IRS answering fewer telephone calls.37 The ACA will further
stretch these already limited resources.

       The IRS projected its fiscal years 2012 and 2013 ACA staffing needs to be
1,278 FTEs and 859 FTEs, respectively. The IRS has not projected staffing needs
beyond FY 2013.38 Additionally, a lack of documentation to support the staffing
requirements needed to implement the ACA precluded TIGTA from providing an opinion
on the adequacy of staffing requests to support implementation.

                                                 
 
34
   Joint Committee on Taxation, JCX-17-10, Estimated Revenue Effects of the Amendment in the Nature
of a Substitute to H.R. 4872, the “Reconciliation Act of 2010,” as Amended, in Combination With the
Revenue Effects of H.R. 3590, the “Patient Protection and Affordable Care Act (‘PPACA’),” as Passed by
the Senate and Scheduled for Consideration by the House Committee on Rules on March 20, 2010
(March 20, 2010).
35
   TIGTA, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts for the Tax Provisions of the
Patient Protection and Affordable Care Act Appear Adequate; However, the Resource Estimation Process
Needs Improvement (June 2012).
36
   A refundable credit which is payable in advance directly to the insurer, which will subsidize the
purchase of certain health insurance plans through an exchange.
37
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sep. 2012).
38
   TIGTA, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts for the Tax Provisions of the
Patient Protection and Affordable Care Act Appear Adequate, However, the Resource Estimation Process
Needs Improvement (June 2012).
                                                    15
 
IDENTITY THEFT AND TAX REFUND FRAUD

Identity Theft

        Despite the increased number of identity theft incidents the IRS has found, the
IRS is still challenged in detecting and preventing them. In July 2012, TIGTA reported
that the impact of identity theft on tax administration is significantly greater than the
amount the IRS detects and prevents.39 Using the characteristics of confirmed identity
theft, we analyzed TY 2010 tax returns processed during the 2011 Filing Season and
identified 1.5 million undetected tax returns with potentially fraudulent tax refunds
totaling in excess of $5 billion. If not addressed, we estimate that the IRS could issue
approximately $21 billion in fraudulent tax refunds resulting from identity theft over the
next five years.

        Incidents of identity theft affecting tax administration have continued to rise since
Calendar Year 2011, when the IRS identified more than one million incidents of identity
theft that impacted our Nation’s tax system. During Calendar Year 2012, the IRS
identified more than 1.7 million incidents, including more than 277,000 incidents in
which taxpayers contacted the IRS alleging that they were victims of identity theft,40 as
well as more than 1.5 million incidents where the IRS detected the occurrence of
potential identity theft.41

        Although the IRS is working towards finding ways to determine which tax returns
are legitimate, access to third-party income and withholding information at the time tax
returns are processed is the single most important tool the IRS could use to detect and
prevent identity theft tax fraud resulting from the reporting of false income and
withholding. Third-party reporting information would enable the IRS to identify the
income as false and prevent the issuance of a fraudulent tax refund. However, most of
this information is not available until well after tax return filing begins.

        Even with improved identification of tax returns that report false wage and
withholding information, verifying whether the returns are fraudulent will require
resources. Using IRS estimates, it would cost approximately $32 million to screen and
verify the approximately 1.5 million tax returns that we identified as not having third-
party information, which indicates that the return information could be false.
                                                 
 
39
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
40
   Taxpayers can be affected by more than one incident of identity theft. These incidents affected
233,365 taxpayers.
41
   These incidents affected 985,843 taxpayers.
                                                    16
 
        Regarding assistance to identity theft victims, TIGTA reported that the IRS is not
effectively providing assistance to taxpayers who report that they have been victims of
identity theft, resulting in increased burden for those victims.42 Moreover, identity theft
cases can take more than one year to resolve and communication between the IRS and
victims is limited and confusing. Victims are also asked multiple times to substantiate
their identities.

       The growth of identity theft presents considerable challenges to tax
administration. In FY 2012, the IRS estimated that its inventory of more than
228,000 identity theft cases that had been carried over from FY 2010 to 2011 would
require 287 staff years to resolve.43 This inventory did not include 500,000 cases that
were in the Duplicate Filing inventory,44 many of which were identity theft cases.

       In FY 2012, the IRS dedicated 400 additional employees to the Accounts
Management function45 to work identity theft cases. However, the inventory of identity
theft cases grew 325 percent from FY 2011 to FY 2012—from approximately 88,000 in
FY 2011 to more than 375,000 in FY 2012. Almost 200,000 identity theft cases were
considered overage in FY 2012.

Criminal Investigations of Identity Theft

         Identity theft not only has a negative impact on the economy but the damage it
causes to its victims can be personally, professionally, and financially devastating.
When individuals steal identities and file fraudulent tax returns to obtain fraudulent
refunds before the legitimate taxpayers file, the crime is simple tax fraud which falls
within the programmatic responsibility of IRS Criminal Investigation. TIGTA OI focuses
its limited investigative resources on investigating identity theft that involves any type of
IRS employee involvement, the misuse of client information by tax preparers, or the
impersonation of the IRS through phishing schemes46 and other means.




                                                 
 
42
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012).
43
   One staff year is approximately 2,080 hours.
44
   A duplicate tax return condition occurs when a tax return posts to a taxpayer’s account that already
contains a tax return. The duplicate tax return becomes part of an inventory of duplicate tax return cases
that require an IRS employee to work and resolve.
45
   The function that works the majority of identity theft cases involving individual duplicate tax returns.
46
   A fraudulent attempt, usually made through e-mail, to steal an individual’s personal information.
                                                    17
 
       For example, a former IRS employee was arrested47 after being charged by a
Federal grand jury on June 26, 2012, for aggravated identity theft, mail fraud,
unauthorized inspection of tax returns and return information, and unauthorized
disclosure of tax returns and return information.48 She subsequently pled guilty to those
charges on August 14, 2012,49 and is awaiting sentencing on March 28, 2013.

        TIGTA OI also investigated a tax preparer who stole the personal identifiers of
several individuals and unlawfully disclosed the information to others to fraudulently
obtain tax refunds. According to the indictment, the subject of the investigation worked
as a tax preparer from January 2002 to June 2008.50 In 2010, he used the personal
identifiers of other individuals to file false income tax returns and obtain refunds from the
IRS.51 The preparer obtained most of the personal identifiers from his prior employment
as a tax preparer and from other employment positions he held.52 He disclosed this
information to co-conspirators so they could also file false income tax returns and obtain
refunds from the IRS.53 The subject and his co-conspirators ultimately defrauded or
attempted to defraud the IRS out of at least $560,000 in tax refunds.54

        As a third example, TIGTA OI investigated a phishing scheme where several
individuals were deceived into divulging their personal identifiers and banking
information to identity thieves who then defrauded them of over $1 million. The subject
of the investigation was sentenced to a total of 30-months of imprisonment and five-
years of supervised release for Aggravated Identity Theft and Conspiracy to Commit
Wire Fraud. He was also ordered to pay $1,741,822 restitution to his victims and a
$200 assessment.55 According to the indictment, the subject and his co-conspirators
operated a scheme to defraud numerous individuals through Internet solicitations,
stealing more than $1 million and the identities of those individuals.56

        While phishing schemes may vary in their technical complexity, most share a
common trait: They involve computers located outside the United States. Despite the
significant investigative challenge this poses, TIGTA OI has been successful in working


                                                 
 
47
   E.D. Pa. Arrest Warrant executed July 5, 2012.
48
   E.D. Pa. Crim. Indict. filed June 26, 2012.
49
   E.D. Pa. Crim. Docket dated Jan. 22, 2013.
50
   S.D. Cal. Superseding Ind. filed June 19, 2012.
51
   Id.
52
   Id.
53
   Id.
54
   Id.
55
   E.D.N.Y. Judgment filed Aug. 9, 2012.
56
   E.D.N.Y. Response to Defendant’s Sentencing Letter filed Dec. 19, 2011.
                                                    18
 
with law enforcement personnel in foreign countries to identify the perpetrators and
obtain prosecutions.

        Finally, identity thieves may also impersonate IRS employees or misuse the IRS
seal to induce unsuspecting taxpayers to disclose their personal identifiers and financial
information for the purpose of committing identity theft. One such criminal posed as an
IRS “Audit Group Representative” and, according to the indictment, sent letters to
various employers demanding that they send him the names, contact information, dates
of birth, and SSNs of their employees.57 He then prepared and filed false Federal tax
returns with the IRS in the names of various taxpayers without their knowledge or
consent.58 The tax returns contained W-2 information such as income and withholding
that was falsely and fraudulently inflated.59 The subject of the investigation used the
refunds to purchase personal items.60 The subject pled guilty to false impersonation of
an officer and employee of the United States; identity theft; subscribing to false and
fraudulent U.S. individual income tax returns; and false, fictitious or fraudulent claims.61

Refundable Credits

      The IRS administers numerous refundable tax credits.62 The most significant
refundable credit is the Earned Income Tax Credit (EITC). The American Recovery and
Reinvestment Act of 2009 (Recovery Act)63 also authorized several temporary
refundable credits, one of which is the American Opportunity Tax Credit (AOTC). For
several years, TIGTA has reported significant concerns with the growth in
noncompliance and fraud in refundable tax credits.64

        The EITC remains the largest refundable credit based on the total claims paid,
and it continues to be vulnerable to a high rate of noncompliance, including incorrect or
erroneous claims caused by taxpayer error or resulting from fraud. TIGTA continues to
report that the IRS does not have effective processes to ensure that claimants qualify
for these credits at the time tax returns are processed and prior to issuance of

                                                 
 
57
   S.D.N.Y. Crim. Indict. filed Jan. 25, 2012.
58
   Id.
59
   Id.
60
   Id.
61
   S.D.N.Y. Minute Entry filed July 11, 2012.
62
   A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer.
Refundable credits can create a Federal tax refund that is larger than the amount a person actually paid
in taxes during the year.
63
   Pub. L. No. 111-5, 123 Stat. 115. 2009.
64
   TIGTA, Ref. No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the
Billions of Dollars of Improperly Paid Claims (Sep. 2012).
                                                     19
 
fraudulent tax refunds. The IRS estimates that it has paid between $110 billion and
$133 billion in improper EITC payments from FYs 2003 through 2012.65 It does not
track estimates for the other refundable credits.66

        The IRS has made little improvement in reducing EITC improper payments in the
years since it was required to report estimates of these payments to Congress in
Calendar Year 2002. The risk continues to remain high that no significant improvement
will be made in reducing EITC improper payments. The IRS estimates that EITC
improper payments equated to $12 to $14 billion in FY 2012.

       TIGTA further reported that although Executive Order 13520 requires the IRS to
intensify its efforts to reduce EITC improper payments, reduction targets and strategies
have not been established to reduce billions of dollars in improper payments made each
year.67 For example, the Executive Order requires the IRS to provide TIGTA with its
plans and supporting analysis for meeting those targets. The IRS’s report to TIGTA did
not include any quantifiable targets to reduce EITC improper payments. IRS
management noted that it did not set reduction targets because it must balance
enforcement efforts among different taxpayer income levels.

        The Additional Child Tax Credit (ACTC) is also susceptible to improper claims.
However, the IRS did not identify the ACTC as a high-risk program under the Improper
Payments Elimination and Recovery Act of 2010 (IPERA).68 Agencies are not required
to take any further action to assess or quantify improper payments if a high risk for
improper payments does not exist. As a result, the IRS and the Department of the
Treasury are not required to quantify and report on ACTC improper payments.
Nevertheless, TIGTA found that taxpayers repeatedly claimed erroneous ACTCs after
their claims were disallowed the previous year.69 The IRS could have saved more than
$108 million by reviewing claims made by taxpayers who were previously disallowed the
credit.

      In addition, TIGTA found that when the IRS freezes and reviews a questionable
EITC claim but releases a related ACTC, the ACTC will later be disallowed 67 percent
                                                 
 
65
   Department of the Treasury Performance and Accountability Reports for FYs 2003 through 2010 and
the Agency Financial Report for FYs 2011 and 2012.
66
   TIGTA, Audit No. 201240045, Compliance with the Improper Payments Elimination and Recovery Act
of 2010.
67
   TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to
Reduce the Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
68
   Pub. L. 111-204, 124 Stat. 2224. 2010.
69
   TIGTA, Ref. No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the
Billions of Dollars of Improperly Paid Claims (Sep. 2012).
                                                    20
 
of the time, and the IRS will have to employ post-refund collection methods to recover
the credits. The IRS could have prevented approximately $419 million in erroneous
ACTC refunds from being released had it reviewed the ACTC at the same time the
EITC was being reviewed.

       In September 2011, we reported that as of May 28, 2010, 2.1 million taxpayers
received $3.2 billion in education credits that appeared to be erroneous.70  Another
TIGTA audit found that individuals are claiming students for the AOTC, who, based on
age, are unlikely to be pursuing an undergraduate degree or vocational certification.71
The Recovery Act provided funding to address college affordability and improve access
to higher education. One tax provision amended the existing Hope Credit to allow a
refundable tax credit, the AOTC, for higher education expenses up to $4,000 for TY’s
2009 and 2010. The maximum AOTC is $2,500 per student and the first 40 percent of
the credit (up to $1,000) is fully refundable. Taxpayers can receive the credit only for
students who attend at least half-time for at least one academic period and who are
pursuing an undergraduate degree or vocational certification. The American Taxpayer
Relief Act of 201272 extended the AOTC for five years through Tax Year 2017.

       We notified the IRS on January 5, 2012 that we had identified approximately
35,000 individuals who were younger than the typical age of individuals enrolled in a
four-year college degree program or vocational school certificate program who were
claimed for the AOTC. It appeared that the individuals were used to erroneously claim
the AOTC on TY 2009 returns. Of the 35,000 individuals, 13,870 were age 10 and
younger. We provided the information for the IRS’s consideration to develop processes
and procedures to identify similar claims to ensure that erroneous education credits
were not paid. TIGTA’s additional review identified more than 109,000 taxpayers who A.5.6




as of May 2, 2012 received refundable AOTC for TY 2011 totaling more than
$159 million for students whose age made them unlikely to be enrolled in a four-year
college degree program or vocational certification.

        During the 2012 Filing Season, a filter was implemented to supplement the
identity theft filters by detecting questionable AOTC claims by elderly taxpayers,
because the combination of age and education credits are common indicators of
potential identity theft. The IRS reported that as of June 22, 2012, it had frozen refunds

                                                 
 
70 TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous (Sep.

2011). 
71
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sep. 2012).
72
   Pub. L. No. 112-240, 126 Stat. 2313. 2013.
                                                  21
 
exceeding $24 million on 2,517 accounts. It has corrected 2,672 accounts through
correspondence or examination adjustments. Another 3,711 returns are in the
examination process and 4,895 are being reviewed for potential identity theft, duplicate
return conditions, or amended return consideration.

TAXPAYER SERVICE

        As demand for taxpayer services continues to increase, resources have
decreased, thereby affecting the quality of customer service that the IRS is able to
provide. Despite other available options, most taxpayers continue to use the telephone
as the primary method to make contact with the IRS. In addition, more taxpayers are
calling the IRS’s toll-free telephone lines each year. In September 2012, TIGTA
reported that an increase in call demand and limited resources continue to adversely
affect the IRS’s Level of Service73 for its toll-free telephone lines.74 During the 2012
Filing Season, taxpayers made over 90 million attempts to call the various Customer
Account Services function toll-free telephone assistance lines75 seeking help in
understanding the tax law and meeting their tax obligations.76 IRS assistors answered
over 13 million calls and achieved approximately a 68 percent Level of Service and a
946-second (almost 16 minutes) Average Speed of Answer.

       A reduction in funding for toll-free telephone and correspondence services
resulted in a Level of Service for FY 2012 of 67 percent. The IRS plans to provide a
70 percent Level of Service for the 2013 Filing Season as well as for FY 2013. The last
year the IRS provided a Level of Service of more than 80 percent was FY 2007. This
decrease translates to longer customer wait times, an increased number of customers
abandoning calls, and an increased number of customers redialing the IRS toll-free
telephone lines for service.

            From the 2007 to the 2012 Filing Season, the IRS’s ability to process taxpayer
correspondence in a timely manner also declined. Assistors who answer the toll-free
telephone lines also handle taxpayer correspondence (including processing amended
tax returns and identity theft cases). During the filing season when call demand is
usually at its highest, more resources are shifted to the telephones to answer calls, and
                                                 
 
73
   The primary measure of service to taxpayers. It is the relative success rate of taxpayers who call for
live assistance on the IRS’s toll-free telephone lines.
74
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sep. 2012).
75
   The IRS refers to the suite of 28 telephone lines to which taxpayers can make calls as “Customer
Account Services Toll-Free.”
76
   Toll-free telephone assistance data presented in this report were taken from available IRS reports
through the week ending April 21, 2012.
                                                   22
 
correspondence inventory processing is placed on hold until call demand subsides. As
call volumes have increased and assistors have been moved to answer telephone calls,
paper correspondence inventories have substantially increased. The correspondence
inventory rose from approximately 480,000 at the end of FY 2007 to more than 1 million
at the end of FY 2012, representing an increase of nearly 114 percent.

        Each year, many taxpayers also seek assistance from one of the IRS’s
397 walk-in offices, called Taxpayer Assistance Centers. The IRS assisted almost
7 million taxpayers in FY 2012 and plans to assist 6 million taxpayers during FY 2013,
15 percent fewer than in FY 2012. The FY 2013 plan was based on the assumption of
limited seasonal staff support and continuing reduction of permanent staff as a result of
the hiring freeze and buy out authority.

        As a result, during the 2013 Filing Season, the IRS will again only provide tax
returns preparation on a limited number of days per week and only on a first-come, first-
served basis. The IRS will not offer taxpayers the option to leave a message when they
call local Taxpayer Assistance Center telephone lines. Appointments will not be
available. Instead, the IRS offers alternative services for tax return preparation, such as
Volunteer Income Tax Assistance, Free File, and Fillable Forms.

HUMAN CAPITAL

       The recruitment and retention of skilled employees is critical to the maintenance
of a high-quality workforce capable of meeting the needs of the American public. The
IRS has made progress in the management of its people (human capital); however,
continued focus will be needed to provide reasonable assurance that the IRS has the
right people in the right place at the right time to provide taxpayers with top-quality
service and to enforce the law with integrity and fairness to all.

        Continued focus by IRS executive management on human capital will remain
important because the IRS is facing several key challenges. In addition to a workforce
that shrunk by approximately 10,000 employees between the end of FY 2010 and the
end of FY 2012, IRS data show that more than one-third of all executives and almost
20 percent of nonexecutive managers are currently eligible for retirement. Within five
fiscal years, nearly 70 percent of all IRS executives and nearly one-half of the IRS’s
nonexecutive managers are projected to be eligible for retirement. Overall, about
40 percent of the IRS’s employees will be retirement eligible within five fiscal years.

     In the current budget environment, the IRS will also be challenged to continue
some of the human capital work it has started. For example, in FY 2012, the IRS

                                            23
 
eliminated funding for its Tuition Assistance Program due to budget constraints. The
IRS had evaluated this program and determined that participants (compared to the
general IRS population) showed lower attrition, more promotions, higher performance
ratings, and higher employee engagement scores. In addition, the IRS is undergoing a
change in top leadership. Commissioner Shulman left the IRS when his term expired in
November 2012. During Commissioner Shulman’s term, he formed the Workforce of
Tomorrow Task Force to address the IRS’s most serious workforce issues, and much
progress was made on human capital issues during his tenure. Interim leadership and
the next Commissioner will need to ensure that actions are taken to build on the
momentum gained during Commissioner Shulman’s term and to effectively address
human capital challenges.

TIGTA BUDGET REQUEST FOR FY 2013

      As of March 5, 2013, the President had not submitted TIGTA’s FY 2014 budget
to Congress. In addition, TIGTA is operating under a Continuing Resolution with
funding based on our FY 2012 enacted budget. For FY 2012, TIGTA’s labor expenses
were approximately 80 percent of our total budget.

        TIGTA’s FY 2013 budget request was $153.8 million, which represents an overall
increase of 1.41 percent above the FY 2012 enacted budget and includes $324,000
needed to support the Council of the Inspectors General on Integrity and Efficiency.
TIGTA’s budget request reduces existing programs by over $2.3 million below the FY
2012 enacted level. It also includes an additional $4.5 million for 29 FTEs for oversight
of the IRS’s implementation of the numerous ACA tax provisions. Several key ACA
provisions will become effective in FY 2013 and FY 2014, but FY 2014 will be a
significant year for ACA oversight. Many provisions that previously became effective
will require continued oversight to ensure that appropriate corrective actions are taken
by the IRS. TIGTA’s oversight will require close coordination among the Audit,
Investigations, and Inspections and Evaluations functions. Each program office brings
unique skills and experience, but our overall success depends greatly upon these
offices’ close collaboration. As such, TIGTA has implemented a multi-year oversight
strategy that includes audits, evaluations, and investigative resources to assess and to
proactively detect and deter efforts to impede the IRS’s implementation of the ACA.
This strategy includes coordination with other agencies, including the Department of
Health and Human Services Office of Inspector General.

      TIGTA OI is also implementing two new enforcement initiatives to address critical
tax administration issues.



                                           24
 
Active Threat Response

        In addition to protecting the integrity of Federal tax administration, TIGTA is
responsible for protecting the IRS’s most valuable asset: Its employees. Over the past
several years, our country has experienced numerous violent incidents in schools,
private offices, and public areas. These tragic events are usually unpredictable and
result in numerous innocent people losing their lives or being severely injured. Between
FY 2009 and 2012, TIGTA has investigated thousands of threats made against IRS
employees. To address the potential danger that one of these tragic incidents would be
focused on IRS employees, TIGTA special agents are being trained to respond to and
neutralize an active threat which could endanger the lives of the approximately 92,500
IRS employees who are employed in over 670 facilities nationwide.

Bribery Awareness

        A large portion of IRS employees are in direct contact with taxpayers and often
encounter situations where a taxpayer may test the employee’s integrity. Bribery, or
attempted bribery, of a public official is a serious offense and it is an attack on the
integrity of the entire IRS organization. Our voluntary tax compliance system is only
successful if taxpayers have confidence that everyone pays their fair share and
individuals who attempt to bribe their way out of paying their taxes will be caught and
prosecuted. To appropriately respond to this serious crime, TIGTA recently created a
training program for both IRS employees and TIGTA special agents. The purpose of
this critical training is two-fold: 1) to raise awareness of bribery overtures to IRS
employees and 2) to provide TIGTA special agents with refresher training for conducting
bribery investigations. By raising awareness, TIGTA hopes that IRS employees will
recognize bribery attempts and promptly report such attempts to TIGTA for
investigation.

TIGTA EFFICIENCIES AND COST SAVINGS MEASURES

       The following highlights TIGTA’s efforts to achieve efficiencies and cost savings
measures for both FY 2012 and FY 2013. These savings have resulted in funds put to
better use by using our scarce budget resources more efficiently on higher priority
programs, such as ensuring the safety and security of IRS employees and facilities and
reviewing areas at high risk of fraud.

       During FY 2012, Phase One of TIGTA’s revised Performance Management
        Program (PMP) was implemented, providing TIGTA managers and Audit,
        Inspections and Evaluations, and Counsel employees with training on how their

                                           25
 
        performance aligns with TIGTA’s mission and organizational goals. PMP training
        was conducted in-house and enabled TIGTA to cancel an existing contract with a
        training vendor, achieving cost savings. Additionally, TIGTA achieved travel cost
        savings by delivering the training via videoconferencing. Phase II of the PMP will
        be implemented on October 1, 2013, and will include enhancements to the
        overall Program.

       TIGTA exceeded Treasury’s FY 2012 Acquisition performance metrics and Small
        Business Acquisition Goals. Specifically, the total acquisition savings goal was
        exceeded by over $670,000 or 454 percent, and the Change in Total High Risk
        Contracting goal was exceeded by 47 percent. The five Small Business
        Acquisition Goals were exceeded by 9 to 20 percent, despite multiple challenges
        and obstacles.

       TIGTA achieved acquisition cost savings in FY 2012 on our laptop refresh and
        other procurements. The laptop refresh savings will occur for four years.

       The Office of Information Technology reduced software costs in FY 2013 by
        eliminating redundancies in a software editing package and software security
        licenses.

       TIGTA has reduced its footprint of offices over the past few years to reduce rent
        costs. Specifically, in Calendar Year 2011, the Headquarters office space was
        significantly reduced by implementing hoteling, which has resulted in significant
        rent savings annually. The OA reduced its office footprint in Calendar Year 2010
        and plans to close an additional office in FY 2013.

       The OA also achieved cost savings in FY 2012 by cancelling various classroom-
        based training and increasing the use of e-learning based training. In addition,
        the OA has steadily reduced its travel budget from FY 2010 to 2012 by 23
        percent.

       The OI has implemented or will implement several cost-cutting measures in FY
        2013. These initiatives include increased use of videoconferencing, reducing
        relocation costs, and delivering bribery-related training for IRS and TIGTA
        employees via webinars.

       During this challenging budget environment, we at TIGTA remain committed to
delivering our mission of ensuring an effective and efficient tax administration system
and preventing, detecting, and deterring fraud, waste, and abuse. We will also identify

                                            26
 
additional opportunities for cost savings, increased revenue, and revenue protection
throughout the IRS. I hope my discussion of the IRS budget request and some of the
major challenges facing the IRS assists Congress in ensuring accountability over the
IRS.

     Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the opportunity to share my views.




                                          27
 
                         J. Russell George
                         Treasury Inspector General for Tax Administration
                         Following his nomination by President George W. Bush, the
                         United States Senate confirmed J. Russell George in
                         November 2004, as the Treasury Inspector General for Tax
                         Administration. Prior to assuming this role, Mr. George served
                         as the Inspector General of the Corporation for National and
                         Community Service, having been nominated to that position by
                         President Bush and confirmed by the Senate in 2002.

                          A native of New York City, where he attended public schools,
                          including Brooklyn Technical High School, Mr. George
received his Bachelor of Arts degree from Howard University in Washington, DC, and
his Doctorate of Jurisprudence from Harvard University's School of Law in Cambridge,
MA. After receiving his law degree, he returned to New York and served as a
prosecutor in the Queens County District Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.




                                           28
 
